HHS/OIG, Audit -"Review of Nonqualified Defined-Benefit Pension Plan Costs Claimed
by Pennsylvania Blue Shield for Fiscal Years 1993 Through 1997,"(A-07-06-00201)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Nonqualified Defined-Benefit Pension Plan Costs Claimed by Pennsylvania
Blue Shield for Fiscal Years 1993 Through 1997," (A-07-06-00201)
January 20, 2006
Complete
Text of Report is available in PDF format (322 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine the allowability of the nonqualified defined-benefit pension
plan (NQDBP) costs Pennsylvania Blue Shield (PBS) claimed for Medicare reimbursement for
fiscal years (FY) 1993 through 1997. PBS underclaimed $100,676 in allowable NQDBP costs for
FYs 1993 through 1997 because it did not claim all of the allowable NQDBP costs allowed by
the Cost Accounting Standards. PBS claimed NQDBP costs of $429,301 for Medicare reimbursement;
however, the allowable NQDBP costs were $529,977. We recommended that PBS revise its Final
Administrative Cost Proposals for FYs 1993 through 1997 or submit a claim for additional
allowable NQDBP costs of $100,676. The auditee agreed with our recommendation.